September 30, 2002

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

HENRY A. PANKEY
VICE PRESIDENT, DELIVERY AND RETAIL

WILLIAM J. BROWN
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

SUBJECT: 	Audit Report – Delivery Vehicle Gasoline
          (Report Number-TD-AR-02-005)

This report presents the results from our self-initiated audit of delivery vehicle gasoline
(Project Number 01NG005DE000). The objective of our audit was to identify areas
where the Postal Service could save money when purchasing gasoline for delivery
vehicles.

The audit revealed that the Postal Service could recover about $4 million in taxes, and
that the Southeast Area could reduce its letter carrier work hour budget by $6 million
annually, or $12 million over the next 2 years, by capturing cost reductions anticipated
as a result of outsourcing fuel delivery. We recommended management fully implement
the centralized fuel management unit we recommended in our July 27, 2001, report on
bulk fuel; recover allowable taxes; and issue the guidance necessary to cause Postal
Service employees to obtain appropriate discounts. We also recommended
management validate the decision to outsource fuel delivery, and reduce the letter
carrier workhour budget by the amount no longer required to fuel delivery vehicles.

Management generally agreed with our recommendations. They stated they would
establish a centralized fuel management team, and that they would pursue discounts
and recoverable taxes. However, they stated that they believed the decision to
outsource fuel delivery had already been validated by participating districts in the
Southeast Area. We reviewed documents management provided concerning their
decision to outsource fuel delivery and found no substantial analysis of the benefit of
on-site fueling versus the use of letter carriers to fuel their own vehicles at retail gas
stations. Nonetheless, management’s comments, taken as a whole, are responsive to
our recommendations.
We believe the establishment of a headquarters centralized fuel management team,
management’s willingness to aggressively pursue available discounts, and
management’s willingness to recoup recoverable taxes, should meet the intent of our
recommendations. Further, we believe that a fully staffed headquarters fuel
management team will be able to routinely evaluate various approaches to gasoline
acquisition, such as the on-site fuel service program used by the Southeast Area.
Consequently, the actions management has taken or planned, are sufficient to address
the issues we identified in our report. Management’s comments and our evaluation of
these comments are included in this report.

The Office of Inspector General (OIG) considers recommendations 1 through 4
significant and, therefore, requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva
director, Transportation and Delivery, at (703) 248-2100, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc:	 Patrick R. Donahoe
     Richard J. Strasser, Jr.
     J. Dwight Young
     Michael F. Spates

     Susan M. Duchek

Delivery Vehicle Gasoline                                 TD-AR-02-005



                            TABLE OF CONTENTS

Executive Summary                                             i

Part I

Introduction
    Background                                                1

    Objective, Scope, and Methodology                         2

    Prior Audit Coverage                                      2


Part II

Audit Results                                                 4

  Delivery Vehicle Gasoline                                   4

      Discounts not Taken                                     4

      Taxes                                                   5

      Labor                                                   6

   Recommendations                                            7

   Management’s Comments                                      7

   Evaluation of Management’s Comments                        9


Appendix A. Tax-Exemption Shortfall                          10


Appendix B. Management’s Comments                            14





                                 Restricted Information
Delivery Vehicle Gasoline	                                                        TD-AR-02-005



                               EXECUTIVE SUMMARY
 Introduction	               The Postal Service owns over 180,000 delivery vehicles,
                             which use more than 90 million gallons of gasoline annually.
                             The Office of Inspector General initiated this audit to identify
                             areas where the Postal Service could save money when
                             purchasing gasoline for delivery vehicles.

 Results in Brief            Our audit revealed that the Postal Service could recover
                             about $4 million in taxes, and that the Southeast Area could
                             reduce the letter carrier workhour budget by $6 million
                             annually, or $12 million over the next 2 years, by capturing
                             cost reductions anticipated as a result of outsourcing fuel
                             delivery.

                             Our audit also revealed that the Postal Service paid too
                             much for delivery vehicle gasoline, in large part, because
                             they had not yet fully implemented the centralized fuel
                             management unit we recommended in our July 27, 2001,
                             report on bulk fuel. Consequently the Postal Service:

                                •	 Did not take full advantage of gasoline discounts
                                   from fuel suppliers.

                                •	 Has not recouped fuel taxes in some states.

                                •	 Did not reduce the letter carrier workhour budget to
                                   capture labor cost savings anticipated as a result of
                                   outsourcing fuel delivery.

 Summary of                  We recommended Postal Service management fully
 Recommendations             implement the centralized fuel management unit we
                             recommended in our July 27, 2001, report on bulk fuel;
                             recover overpaid taxes; and issue the guidance necessary
                             to cause Postal Service employees to obtain appropriate
                             discounts. We also recommended management validate
                             the decision to outsource fuel delivery, and reduce the letter
                             carrier workhour budget by the amount no longer required to
                             fuel delivery vehicles.

 Summary of                  Management generally agreed with our recommendations.
 Management’s                They stated they were establishing a headquarters
 Comments                    centralized fuel management team, and that they would
                             pursue available discounts and recoverable taxes.


                                                i
                                     Restricted Information
Delivery Vehicle Gasoline                                                       TD-AR-02-005



                            However, they stated that they believed the decision to
                            outsource fuel delivery had already been validated by
                            participating districts in the Southeast Area. Management’s
                            comments, in their entirety, are included in Appendix B of
                            this report.

 Overall Evaluation of      We reviewed documents management provided concerning
 Management’s               their decision to outsource fuel delivery and found no
 Comments                   substantial analysis of the benefit of on-site fueling versus
                            the use of letter carriers to fuel their own vehicles at retail
                            gas stations. Nonetheless, management’s comments,
                            taken as a whole, are responsive to our recommendations.
                            We believe the establishment of a headquarters centralized
                            fuel management team, management’s willingness to
                            aggressively pursue available discounts, and management’s
                            willingness to recoup recoverable taxes, meets the intent of
                            our recommendations. Further, we believe that a fully
                            staffed headquarters fuel management team will be able to
                            routinely evaluate various approaches to gasoline
                            acquisition, such as the on-site fuel service program used
                            by the Southeast Area. Consequently, we believe the
                            actions management has taken or planned, are sufficient to
                            address the issues we identified in our report.




                                               ii
                                    Restricted Information
Delivery Vehicle Gasoline                                                          TD-AR-02-005



                                    INTRODUCTION
 Background                  The Postal Service owns over 180,000 delivery vehicles,
                             which use more than 90 million gallons of gasoline annually.
                             The Postal Service purchases gasoline for delivery vehicles




                                              Postal Service Delivery Vehicles

                             in two ways—from retail gas stations or in bulk. During
                             fiscal year (FY) 2001, retail purchases totaled 80 million
                             gallons, while bulk purchases only totaled 11 million gallons.

                             In 2001, the Postal Service announced plans to cut
                             transportation costs by 10 percent over 5 years.
                             Vulnerability to fluctuating fuel prices significantly impacts
                             that goal. For example, based on a total of 91 million
                             gallons of fuel consumed in FY 2001, for every penny

                             BULK PURCHASES
                            11 MILLION GALLONS

                                                                      RETAIL
                                                                    PURCHASES
                                                                    80 MILLION
                                                                     GALLONS




                                                        TOTAL FISCAL YEAR 2001
                                                 DELIVERY VEHICLE GASOLINE PURCHASES
                                                          91 MILLION GALLONS

                             fuel prices rise, the Postal Service annual fuel cost rises by
                             $910,000. Since the average gasoline prices rose 20 cents
                             per gallon during FY 2001, fuel for delivery vehicles cost the
                             Postal Service over $18 million more that year.


                                                1
                                     Restricted Information
Delivery Vehicle Gasoline	                                                       TD-AR-02-005




 Objective, Scope, and       The objective of our audit was to identify areas where the
 Methodology                 Postal Service could save money when purchasing gasoline
                             for delivery vehicles.

                             To accomplish our objective, we interviewed Postal Service
                             officials at headquarters and in the field. In addition we
                             interviewed Postal Service contractors, and analyzed
                             contractor computer data. Although we did not
                             comprehensively audit the reliability of contractor data, we
                             did conduct limited tests to trace individual data elements to
                             source documents. We also conducted a telephone survey
                             with Postal Service fuel managers in all 85 Postal Service
                             districts; benchmarked with Postal Service competitors; and
                             visited the Southeast Area where we met with Postal
                             Service managers and employees, examined Southeast
                             Area records and other material related to gasoline
                             acquisition.

                             Our audit was conducted from August 2001 through
                             September 2002 in accordance with generally accepted
                             government auditing standards and included such tests of
                             internal controls as were considered necessary under the
                             circumstances. We discussed our conclusions and
                             observations with appropriate management officials and
                             included their comments, where appropriate.

 Prior Audit Coverage	       Our report, Removal of Underground Storage Tanks
                             (CA-AR-99-002), dated, September 30, 1999, concluded the
                             Postal Service removed Postal Service owned fuel storage
                             tanks without performing required cost benefit analyses; that
                             the decision to remove tanks was made without considering
                             the economic or operational impact; that tanks were
                             unnecessarily removed; and that consequently, the Postal
                             Service incurred excessive cost. The report noted that after
                             tanks were removed, fueling at retail gasoline stations was
                             used as an alternative fueling method. We made
                             five recommendations to address issues we identified in our
                             report. Management agreed with all of our
                             recommendations.

                             Our report, Bulk Fuel Purchase Plan (TR-AR-01-004), dated
                             July 27, 2001, concluded the Postal Service could save
                             $15.9 million on fuel over 5 years, by using existing Postal
                             Service fuel facilities; installing new fuel facilities at high


                                                2
                                     Restricted Information
Delivery Vehicle Gasoline                                                     TD-AR-02-005



                            volume locations; and centrally managing fuel acquisition at
                            Postal Service Headquarters. The report made
                            five recommendations, including the establishment of a
                            centralized fuel management unit to negotiate more
                            competitive fuel prices and obtain optimum fuel pricing.
                            Management agreed with all of our recommendations and
                            stated that they would establish a centralized fuel
                            management unit after analyzing unit staffing and funding
                            requirements. Management also stated they expected to
                            complete their analysis by August 2001.




                                               3
                                    Restricted Information
Delivery Vehicle Gasoline	                                                      TD-AR-02-005



                                   AUDIT RESULTS
 Delivery Vehicle            Our audit revealed that the Postal Service could recover
 Gasoline                    about $4 million in costs for delivery vehicle gasoline, and
                             that the Southeast Area could reduce its budget more than
                             $6 million annually, or more than $12 million over the next
                             2 years. The Postal Service paid too much for delivery
                             vehicle gasoline, in large part, because they had not yet
                             fully centralized fuel management as we recommended in
                             our July 27, 2001, report on bulk fuel. Consequently the
                             Postal Service:

                                •	 Did not take full advantage of gasoline discounts
                                   from fuel suppliers.

                                •	 Has not recouped fuel taxes in some states.

                                •	 Did not reduce the letter carrier workhour budget to
                                   capture labor cost savings anticipated as a result of
                                   outsourcing fuel delivery.

 Discounts not Taken	        The Postal Service did not take full advantage of gasoline
                             discounts available by using the Voyager Card at retail
                             gasoline stations. The Voyager Card is a financial




                                                4
                                     Restricted Information
Delivery Vehicle Gasoline	                                                           TD-AR-02-005




                             instrument Postal Service employees use like a credit card.
                             Voyager is administered under the General Services
                             Administration SmartPay Program to simplify the payment
                             process for fueling and maintaining government vehicles.
                             The SmartPay contractor for the Postal Service is United
                             States Bank Voyager Fleet Systems Incorporated, or simply
                             Voyager. The Site Fleet Card Guide for the United States
                             Postal Service (Site Fleet Card Guide), dated June 1, 2001,
                             is published by Voyager. The guide promises that Voyager
                             will deliver a comprehensive fuel discounting system
                             including procedures for obtaining local discounts. The
                             guide also states that the vice president, Purchasing and




                                        Delivery Vehicle at Retail Gasoline Vendor

                             Materials (now Supply Management), is responsible for
                             establishing Voyager policy and procedure. The Postal
                             Service did not receive discounts to which it was entitled
                             because:

                                •	 Postal Service management did not effectively
                                   provide policy or other guidance as specified by the
                                   Site Fleet Card Guide. Consequently, Postal Service
                                   employees did not always purchase gasoline from
                                   vendors offering national discounts.

                                •	 Local Postal Service managers did not always obtain
                                   local discounts in accordance with instructions


                                                5
                                     Restricted Information
Delivery Vehicle Gasoline                                                      TD-AR-02-005



                                   published in the Voyager Site Fleet Card Guide.

 Taxes                      Our audit revealed that during the period May 2000 through
                            December 2001, while using the Voyager Card, the Postal
                            Service did not recoup approximately $4 million in state
                            gasoline taxes. (See Appendix B.)

                            Fuel tax laws vary in individual states. Currently, the Postal
                            Service is exempt from state fuel taxes in 45 states and the
                            District of Columbia. Only California, Illinois, Kentucky,
                            Louisiana, and Mississippi tax Postal Service retail gasoline
                            purchases. The Site Fleet Card Guide states that when
                            authorized under individual state law, Voyager will invoice
                            the Postal Service “net of all state excise fuel taxes.”
                            However, the contract between Voyager and the Postal
                            Service, dated December 1, 1999, significantly limits
                            Voyager’s obligation. Specifically, Voyager is only required
                            to process exemptions it can handle electronically.
                            Consequently, Voyager does not process exemptions which
                            must be handled manually. The Site Fleet Card Guide
                            specifies that when manual intervention is required,
                            recouping taxes is the responsibility of the vice president,
                            Supply Management. The Postal Service is paying too
                            much in taxes because the procedure for recouping taxes is
                            not fully developed. As a result, as of January 2002, the
                            Postal Service has recovered less than $1 million in taxes it
                            could have recouped since the Voyager System was
                            implemented in 1999.

                            During our audit, we noted that prior to the Voyager System,
                            the vice president, Supply Management, conducted a test to
                            recover state fuel taxes. Specifically, in November 1997,
                            the Purchasing and Materials Service Center in Memphis,
                            Tennessee, tested a pilot program to recover state fuel
                            taxes paid to Georgia—taxes from which the Postal Service
                            was exempt. The test involved retail fuel purchases made
                            with oil company credit cards. Postal Service officials stated
                            that the pilot was a success, and in October 2001,
                            expanded the pilot to a nationwide tax recovery effort. We
                            did not audit the Postal Service pilot, tax recoveries under
                            the pilot, or tax recovery forecasts under the expanded
                            program; however, Postal Service officials we spoke to
                            estimated tax recoveries could exceed $14 million.

 Labor                      The Southeast Area could reduce the letter carrier workhour


                                               6
                                    Restricted Information
Delivery Vehicle Gasoline	                                                        TD-AR-02-005



                             budget by $6 million annually, or $12 million over 2 years,
                             by capturing labor cost savings anticipated as a result of
                             outsourcing fuel delivery. Southeast Area letter carriers
                             previously fueled their own delivery vehicles at retail
                             gasoline stations. The Postal Service Fuel Management
                             Business Plan, dated August 2001, estimated that it cost the
                             Postal Service approximately 78 cents per gallon for letter
                             carriers to fuel delivery vehicles. In order to reduce labor
                             costs, the Southeast Area contracted with three bulk fuel
                             vendors to deliver fuel on-site. During calendar year 2001,
                             bulk fuel contractors pumped approximately 8 million
                             gallons of gasoline into Southeast Area delivery vehicles.
                             However, our audit revealed the Southeast Area did not




                              Bulk Fuel Vendor Pumping Gasoline at a Postal Service Facility

                             reduce budgeted labor costs to capture the anticipated
                             reduction in required letter carrier labor. Consequently,
                             using Postal Service published labor cost estimates, the
                             Southeast Area budgeted more than $6 million for letter
                             carrier labor that was no longer needed.

 Recommendation              We recommend the vice president, Supply Management:

                                1.	 Fully implement the centralized fuel management unit
                                    we recommended in our July 27, 2001, report on bulk
                                    fuel, and include adequate staffing to ensure the
                                    Postal Service takes advantage of all fuel discounts,


                                                7
                                     Restricted Information
Delivery Vehicle Gasoline	                                                      TD-AR-02-005



                                    effectively negotiates potential fuel discounts,
                                    recoups all recoverable fuel taxes, and monitors
                                    anticipated cost savings associated with outsourcing
                                    fuel delivery operations.

 Management’s                Management agreed with our recommendation. They
 Comments                    stated that in June 2002, they had centralized fuel
                             management under a reorganized headquarters Supply
                             Management organization. They also stated that staffing of
                             the centralized fuel management unit should be completed
                             not later than March 2003.

 Recommendation              We recommend the vice president, Supply Management:

                                2.	 Recoup allowable state fuel taxes, and consider
                                    expanding the tax recovery program tested in 1997,
                                    to include recoveries necessitated by Voyager.

 Management’s                Management agreed with the intent of the recommendation.
 Comments                    However, they stated they had not been able to replicate
                             our data and consequently did not necessarily concur with
                             the $4 million we identified as recoverable. Nonetheless,
                             they stated they would work to identify any excess taxes
                             that may have been paid, and take the appropriate action to
                             recover recoupable taxes.

 Recommendation              We recommend the vice president, Supply Management, in
                             coordination with the vice president, Delivery and Retail:

                                3.	 Develop and issue policies, training programs, and
                                    other guidance necessary to cause Postal Service
                                    employees to purchase gasoline from vendors
                                    offering national discounts, and to cause local Postal
                                    Service managers to negotiate local discounts in
                                    accordance with instructions published in the
                                    Voyager Site Fleet Card Guide.

 Management’s                Management agreed with the recommendation. They
 Comments                    stated that at least annually, the headquarters centralized
                             fuel management team would issue a Postal Bulletin notice
                             alerting personnel to suppliers offering national fuel
                             discounts, and remind local managers that they are
                             encouraged to negotiate local discounts. They also stated
                             the first Postal Bulletin notice would be published not later
                             than March, 2003. Finally, they stated that they would

                                                8
                                     Restricted Information
Delivery Vehicle Gasoline                                                  TD-AR-02-005



                            continue to work with local managers to reduce and manage
                            fuel costs.




                                              9
                                   Restricted Information
Delivery Vehicle Gasoline                                                       TD-AR-02-005




 Recommendation             We recommend the vice president, Southeast Area
                            Operations:

                               4. Validate the decision to outsource fuel delivery and
                                  reduce the letter carrier workhour budget by the
                                  amount no longer needed to fuel delivery vehicles.

 Management’s               Management stated that they conducted an on-site fuel
 Comments                   service pilot in 1994 to determine the economic value of
                            on-site fueling including:

                               •   Expected carrier workhour savings.

                               •   Tax avoidance.

                               •   Savings achieved by gaining control over fuel buying.

                            Management also stated that they began on-site fueling in
                            part to protect against fuel supply disruptions at retail gas
                            stations during hurricanes, and that they believe on-site fuel
                            service has been validated by participating districts in the
                            Southeast Area.

 Evaluation of              We reviewed the documents management provided
 Management’s               concerning their 1994 on-site fuel service pilot, as well as
 Comments                   other documents provided by management. Our review
                            found no substantial analysis evaluating the benefit of
                            on-site fueling versus use of letter carriers fueling their own
                            vehicles at retail gas stations. Nor did we find any
                            conclusive analysis of bulk fuel outsourcing as a protection
                            against hurricanes. Nonetheless, management comments,
                            taken as a whole, are responsive to our recommendations.
                            We believe the establishment of a headquarters centralized
                            fuel management team, management’s willingness to
                            aggressively pursue available discounts, and management’s
                            willingness to recoup recoverable taxes, meets the intent of
                            our recommendations. Further, we believe that a fully
                            staffed headquarters fuel management team will be able to
                            routinely evaluate various approaches to gasoline
                            acquisition, such as the on-site fuel service program used
                            by the Southeast Area. Consequently, we believe the
                            actions management has taken or planned, should be
                            sufficient to address the issues we identified in our report.


                                              10
                                    Restricted Information
Delivery Vehicle Gasoline                                                               TD-AR-02-005



                   APPENDIX A. TAX EXEMPTION SHORTFALL
                                        Table 1: FY 2000
                            Tax Exemption               Tax Exemption              Taxes To Be
State                             Entitled                   Received               Recovered*
Alabama                            $4,097                           $0                  $4,097
Arkansas                            $559                            $0                    $559
Connecticut                        $5,087                      -$4,475                    $612
Delaware                              $40                         -$40                      $0
District of Columbia                    $3                         -$3                      $0
Florida                            $1,451                           $0                  $1,451
Maine                               $751                         -$725                     $26
Maryland                          $43,723                     -$41,936                  $1,787
Massachusetts                      $4,214                           $0                  $4,214
Missouri                                $2                         -$2                      $0
New Hampshire                      $1,486                      -$1,477                      $9
New Jersey                         $2,250                      -$1,872                    $378
Ohio                                $676                         -$673                      $3
Pennsylvania                       $2,421                        -$699                  $1,722
Rhode Island                       $2,322                           $0                  $2,322
South Carolina                      $239                         -$236                      $3
Tennessee                         $26,527                           $0                 $26,527
Vermont                               $96                           $0                     $96
Virginia                              $38                         -$38                      $0
West Virginia                           $4                          $0                      $4
TOTAL                             $95,947                     -$52,136                 $43,810

*Source: Postal Service/Office of Inspector General (OIG) analysis of Voyager data. We used the tax
rates for calendar years 2000 and 2001 from each state, Defense Energy Supply Center, and the Federal
Tax Administration web sites. We used the tax rate for calendar year 2001 as a proxy for FY 2002.




                                                  11
                                        Restricted Information
Delivery Vehicle Gasoline                                                                 TD-AR-02-005



                                       Table 2: FY 2001
                                Tax Exemption        Tax Exemption         Taxes To Be
         State                         Entitled           Received          Recovered*
        Alabama                      $118,245                    $0           $118,245
        Alaska                         $13,661                   $0             $13,661
        Arizona                      $212,776                    $0           $212,776
        Arkansas                     $117,050             -$111,382              $5,668
        Colorado                     $206,179             -$204,465              $1,714
        Connecticut                  $288,356             -$286,267              $2,088
        Delaware                       $74,958              -$2,905             $72,053
        District of Columbia           $16,053             -$15,648               $406
        Florida                        $92,207                  -$5             $92,203
        Hawaii                         $15,808              -$2,390             $13,418
        Idaho                          $55,060                   $0             $55,060
        Indiana                      $142,929              -$25,536           $117,393
        Iowa                           $98,482                   $0             $98,482
        Kansas                         $91,882             -$89,879              $2,003
        Maine                          $45,534             -$43,516              $2,019
        Maryland                     $371,459             -$365,791              $5,669
        Massachusetts                $348,949                    $0           $348,949
        Michigan                     $449,019                   -$6           $449,014
        Minnesota                    $156,831                    $0           $156,831
        Missouri                     $183,096             -$176,600              $6,496
        Montana                        $46,354                   $0             $46,354
        Nevada                         $29,671                   $0             $29,671
        New Hampshire                  $49,419             -$49,214               $205
        New Jersey                   $430,204             -$416,709             $13,495
        New Mexico                     $58,471             -$49,354              $9,117
        North Carolina               $484,924             -$484,093               $831
        North Dakota                   $18,973             -$15,312              $3,661
        Ohio                         $712,591             -$706,139              $6,452
        Oregon                       $189,329                    $0           $189,329
        Pennsylvania                 $640,062             -$615,376             $24,686
        Rhode Island                   $85,741                   $0             $85,741
        South Dakota                   $17,472             -$16,692               $780
        Tennessee                    $322,600                    $0           $322,600
        Texas                       $1,154,580          -$1,141,981             $12,599
        Utah                         $107,440                    $0           $107,440
        Vermont                        $12,874                   $0             $12,874
        Virginia                     $290,664             -$289,870               $793
        Washington                   $269,283                    $0           $269,283
        West Virginia                  $46,245                   $0             $46,245
        Wisconsin                    $237,655             -$255,943                  $0
        Wyoming                        $10,607                   $0             $10,607
        TOTAL                       $8,076,039          -$5,109,128          $2,966,911

*Source: Postal Service/OIG analysis of Voyager data. We used the tax rates for calendar years 2000
and 2001 from each state, Defense Energy Supply Center, and the Federal Tax Administration web sites.
We used the tax rate for calendar year 2001 as a proxy for FY 2002.


                                                  12
                                        Restricted Information
Delivery Vehicle Gasoline                                                               TD-AR-02-005



                                        Table 3: FY 2002
                                        Tax              Tax
                                 Exemption        Exemption               Taxes To Be
        State                       Entitled       Received                Recovered*
        Alabama                     $30,313               $0                  $30,313
        Alaska                       $3,293               $0                   $3,293
        Arizona                     $88,093               $0                  $88,093
        Arkansas                    $43,055         -$41,763                   $1,292
        Colorado                    $95,610         -$94,366                   $1,244
        Connecticut               $110,515         -$109,570                     $944
        Delaware                    $24,054         -$23,346                     $708
        District of Columbia         $7,374          -$7,184                     $190
        Florida                     $34,943               $0                  $34,943
        Idaho                       $24,047               $0                  $24,047
        Indiana                     $66,495         -$17,969                  $48,526
        Iowa                        $39,527               $0                  $39,527
        Kansas                      $43,526         -$42,709                     $816
        Maine                       $14,575         -$13,459                   $1,116
        Maryland                  $133,168         -$130,837                   $2,331
        Massachusetts             $125,243                $0                 $125,243
        Michigan                  $212,660         -$186,985                  $25,680
        Minnesota                   $73,896               $0                  $73,896
        Missouri                    $86,132         -$84,166                   $1,966
        Montana                     $19,354               $0                  $19,354
        Nebraska                    $32,834         -$32,178                     $656
        Nevada                      $13,038               $0                  $13,038
        New Hampshire               $16,199         -$16,117                      $82
        New Jersey                $143,135         -$140,382                   $2,753
        New Mexico                  $27,814         -$23,488                   $4,326
        North Carolina            $162,491         -$162,242                     $249
        North Dakota                 $9,454          -$7,636                   $1,818
        Ohio                      $230,537         -$229,407                   $1,130
        Oregon                      $83,848               $0                  $83,848
        Pennsylvania              $224,890         -$217,431                   $7,458
        Rhode Island                $27,178               $0                  $27,178
        South Carolina              $48,557         -$48,555                       $1
        South Dakota                 $6,272          -$5,958                     $313
        Texas                     $422,366         -$419,625                   $2,741
        Utah                        $47,506               $0                  $47,506
        Vermont                      $4,282               $0                   $4,282
        Virginia                  $116,930         -$112,607                   $4,323
        Washington                $121,188                $0                 $121,188
        West Virginia               $17,739               $0                  $17,739
        Wyoming                      $4,663               $0                   $4,663
        TOTAL                    $3,036,792      -$2,167,981                 $868,817

*Source: Postal Service/OIG analysis of Voyager data. We used the tax rates for calendar years 2000
and 2001 from each state, Defense Energy Supply Center, and the Federal Tax Administration web sites.
We used the tax rate for calendar year 2001 as a proxy for FY 2002.


                                                  13
                                        Restricted Information
Delivery Vehicle Gasoline                                                               TD-AR-02-005




                            Table 4: FY 2000 thru 2002 Summary
                        Tax Exemption                 Tax Exemption                Taxes To Be
Fiscal Year                    Entitled                    Received                 Recovered*
2000                           $95,947                      -$52,136                    $43,810
2001                        $8,076,039                   -$5,109,128                 $2,966,911
2002                        $3,036,792                   -$2,167,981                  $868,817
Total                      $11,208,778                   -$7,329,245                 $3,879,538

*Source: Postal Service/OIG analysis of Voyager data. We used the tax rates for calendar years 2000
and 2001 from each state, Defense Energy Supply Center, and the Federal Tax Administration web sites.
We used the tax rate for calendar year 2001 as a proxy for FY 2002.




                                                    14
                                          Restricted Information
Delivery Vehicle Gasoline                               TD-AR-02-005



                   APPENDIX B. MANAGEMENT’S COMMENTS





                                        15

                              Restricted Information
Delivery Vehicle Gasoline                            TD-AR-02-005




                                      16

                            Restricted Information
Delivery Vehicle Gasoline                            TD-AR-02-005




                                      17

                            Restricted Information
Delivery Vehicle Gasoline                            TD-AR-02-005




                                      18

                            Restricted Information
Delivery Vehicle Gasoline                            TD-AR-02-005




                                      19

                            Restricted Information
Delivery Vehicle Gasoline                                                                          TD-AR-02-005




Note: Please note that recommendation 4 in the draft report was renumbered as recommendation 3 in the final
report.


                                                       20
                                             Restricted Information
Delivery Vehicle Gasoline                            TD-AR-02-005




                                      21

                            Restricted Information
Delivery Vehicle Gasoline                                                                          TD-AR-02-005




Note: Please note that recommendation 5 in the draft report was renumbered as recommendation 4 in the final
report.


                                                       22
                                             Restricted Information
